                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

    Case Number: A06040012                                                                   Page 1 of 1


I
          The subject' accepts responsibility for the duplicated text that appears in the proposal,2 and
          agrees that explicit citation would have been appropriate. The subject minimizes the impact of
          the duplication, arguing that the duplicated text was background material, and did not add to the
          scientific content of the proposal. A reminder of standards of scholarship in all parts of the
          proposal is included in the close letter. The minimal amount of duplicated text, along with the
          fact that no evidence of plagiarism was uncovered in other proposals submitted by the subjects,
          argues that NSF interests can be protected by a reminder to the subjects.

              Accordingly, this case is closed.




          I
               Redacted.
          2
               Redacted.




$SF OIG Form 2 ( 1 1/02)
